                                     NATIONAL SCIENCE FOUNDATION
                                      OFFICE OF INSPECTOR GENERAL
                                        OFFICE OF INVESTIGATIONS


                         CLOSEOUT MEMORANDWM

Case Number: A03120081                                                    Page 1of 1


    This grant1 was selected as part of our proactive review of FY 2001 awards for
    conferences, workshop, and symposia to assess compliance with applicable laws,
    regulations, and award conditions. As part of this review, we requested documents
    from the grantee describing how it dispensed program income, if any was generated.
    There was no program income generated under this grant. However, we noted
    three instances of flights, charged to the grant, that appeared to violate Title 49
    U.S. Code 40118, commonly referred to as the Fly America Act (FAA,). We wrote the
    grantee and requested a n explanation. The grantee explained one of the flight
    carriers had a partnership agreement with a U.S. airline. For another flight, there
    appears to have been no available U.S. carrier. The third flight, which was booked
    on a short time deadline, appears to have been sought only for the lowest cost. Cost
    alone is not a qualifying exemption though. Accordingly, we sent a letter to the
    grantee emphasizing all future travel shopld comply with the FAA. The letter
    resolves the matter, and this case is closed.
